Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  DEFICIENCY HISTORY AND 

RECERTIFICATION OF MEDICARE 

  HOME HEALTH AGENCIES





                    Daniel R. Levinson

                     Inspector General 


                      August 2008

                     OEI-09-06-00040

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
I N T R O D        U C T      I O N
Δ    E X E C U T I V E                           S U M M A R Y


                    OBJECTIVE
                    To determine:

                        1.	 the extent to which Medicare home health agencies (HHA)
                            repeated the same deficiency citations across three consecutive
                            surveys, and

                        2.	 whether the Centers for Medicare & Medicaid Services (CMS)
                            uses deficiency history in its oversight of HHAs.


                    BACKGROUND
                    Medicare’s home health benefit provides treatment for beneficiaries who
                    have short- or long-term illnesses or injuries and who are confined to
                    their homes. Services provided by a Medicare HHA include skilled
                    nursing services, therapeutic services (physical and occupational
                    therapy and speech-language pathology), home health aide services,
                    medical social services, and certain medical supplies and equipment. In
                    recent years, this benefit has grown in terms of Medicare beneficiaries
                    receiving home health services, expenditures, and number of HHAs.

                    All HHAs participating in the Medicare program must be compliant
                    with 15 Medicare Conditions of Participation (CoP) and 69 standards.
                    CMS contracts with State agencies to conduct initial HHA certification
                    and recertification surveys to determine CoP compliance. Since fiscal
                    year 2006, pursuant to section 1891(c)(2)(A) of the Social Security Act,
                    all HHAs have been subject to a recertification survey at least once
                    every 36 months. In addition, State agencies annually survey a
                    5-percent targeted sample of at-risk HHAs. CMS uses an algorithm to
                    identify at-risk HHAs. An HHA that receives one or more standard-
                    level or condition-level deficiencies must respond to the State agency
                    with a plan of correction. An HHA with one or more condition-level
                    deficiencies must come back into compliance within 90 calendar days
                    from the completed survey date. Noncompliance with one or more CoP
                    is cause for termination of participation. Termination is the only
                    sanction available to CMS in response to HHA noncompliance. CMS
                    has not implemented intermediate sanctions against HHAs as directed
                    by the Omnibus Budget Reconciliation Act of 1987 (OBRA 1987).

                    The report findings are based primarily on analysis of data from CMS’s
                    Online Survey Certification and Reporting System (OSCAR). We
                    analyzed survey data for 5,661 active Medicare-certified HHAs as of


 OEI-09-06-00040    DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   i
E X E C U T I V E               S U       M M A R Y


                   January 11, 2007. We also interviewed staff at CMS headquarters and
                   regional offices, State agencies, and HHAs.


                   FINDINGS
                   Fifteen percent of HHAs repeated the same deficiency citation on
                   three consecutive surveys. These cyclically deficient HHAs’ most
                   frequently repeated deficiency citation is related to patient plans of
                   care. On the three most recent surveys, these HHAs received, on
                   average, twice as many deficiency citations per survey compared to
                   HHAs that did not repeat citations. Among cyclically deficient HHAs,
                   most are located in six States and tend to be concentrated in highly
                   populated areas.
                   CMS oversight of HHAs could be improved. Currently, CMS does not
                   use all available deficiency history information in its oversight of HHAs.
                   We found that deficiency history beyond the most recent survey can be
                   an important indicator of performance on the next survey and can
                   improve CMS’s identification of at-risk HHAs. For HHAs with one or
                   more condition-level deficiencies, CMS has no sanction other than
                   initiating a termination track.


                   RECOMMENDATIONS
                   Based on our findings, we recommend that CMS:

                   Use existing survey data to identify patterns of deficiency citations
                   and at-risk HHAs. CMS should require surveyors to review all
                   available survey data prior to each upcoming survey. In addition, CMS
                   should include multiple survey results in its algorithm that identifies
                   HHAs that are at risk of providing poor quality of care.
                   Implement intermediate sanctions as directed by the OBRA 1987.
                   Currently, termination from the Medicare program is the only sanction
                   for poor-performing HHAs. Intermediate sanctions may include civil
                   money penalties, suspension of all or part of Medicare payments, and
                   appointment of temporary management for cyclically deficient HHAs.




 OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   ii
E X E C U T I V E               S U       M M A R Y 




                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS generally concurred with our recommendations. CMS indicated
                   that, during the last several years, it has implemented improvements to
                   the oversight of HHAs, many of which address the issue of repeated
                   deficiencies.

                   CMS concurred, in part, with the recommendation that the agency use
                   existing survey data to identify patterns of deficiency citations and
                   at-risk HHAs; specifically, that CMS require surveyors to review all
                   available survey data prior to each upcoming survey. CMS noted that
                   section 2200A of the “State Operations Manual” requires surveyors to
                   review complaint data, previous survey data, and reports generated by
                   the Outcome and Assessment Information Set system when preparing
                   to conduct an onsite survey. The agency will issue the final version of
                   this report to the regional offices and State survey agencies and
                   reinforce the necessity of reviewing previous survey data.

                   CMS does not concur with the second part of this recommendation: that
                   the agency include multiple survey results in the algorithm that
                   identifies a targeted sample of HHAs that are at risk of providing poor
                   quality of care. CMS suggests that including an algorithm of three
                   standard surveys would result in newer HHAs, among others, not being
                   included in the targeting process because these HHAs lack historical
                   survey data. We excluded HHAs that did not meet the study criteria in
                   order to determine clearly the relationship between repeat deficiencies
                   and subsequent survey performance. However, CMS would not need to
                   exclude any HHAs when using an algorithm that makes use of
                   historical data. CMS could modify the algorithm to include any
                   available historical survey data that have been weighted, as
                   appropriate. HHAs with fewer than four surveys included in OSCAR
                   would be assessed based on the survey data that are available. Our
                   analysis demonstrates that historical data can improve CMS’s ability to
                   identify at-risk HHAs. CMS should use all available data to target
                   those HHAs most at risk of providing poor quality of care.

                   As an alternative to modifying the algorithm to include historical survey
                   data, CMS could conduct analysis similar to that described in this
                   report to identify HHAs with repeated deficiencies across multiple
                   surveys. CMS could provide this information to State survey agencies
                   annually to help surveyors identify HHAs that may be in need of closer
                   review, whether or not they appear in the targeted sample.

 OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   iii
E X E C U T I V E               S U       M M A R Y


                   CMS concurred with the recommendation to implement intermediate
                   sanctions as directed by the OBRA 1987. The agency indicated that
                   changes in law and other regulations, together with the demands of
                   additional improvement efforts, have impeded promulgation of the final
                   rule. CMS outlined several initiatives it has undertaken during this
                   time to address HHA performance and compliance.




 OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   iv
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 9 

                   Fifteen percent of HHAs repeated the same deficiency citation 

                   on three consecutive surveys . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


                   CMS oversight of HHAs could be improved . . . . . . . . . . . . . . . . . . 11 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

                   Agency Comments and Office of Inspector General Response . . . 15 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                   A: 	Medicare HHA Conditions of Participation and Standards. . . 17 


                   B: 	HHA Survey Cycles Prior to Fiscal Year 2006 . . . . . . . . . . . . . 21 


                   C:	 CMS’s Algorithm to Identify Targeted Sample of 

                       At-Risk HHAs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 


                   D: 	Standard-Level Deficiency Citations That Account for 

                       Half of All Deficiencies Across the Three Most Recent 

                       Surveys for Cyclically Deficient HHAs . . . . . . . . . . . . . . . . . . . 23 


                   E:	 Metropolitan Statistical Areas With High Numbers 

                       of Cyclically Deficient HHAs. . . . . . . . . . . . . . . . . . . . . . . . . . . 24 


                   F: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 

I N T R O D        U C T      I O N
Δ    I N T R O D U C T I O N


                    OBJECTIVE
                    To determine:

                        1.	 the extent to which Medicare home health agencies (HHA)
                            repeated the same deficiency citations across three consecutive
                            surveys, and

                        2.	 whether the Centers for Medicare & Medicaid Services (CMS)
                            uses deficiency history in its oversight of HHAs.


                    BACKGROUND
                    Medicare Home Health Benefit and Medicare Expenditures
                    Medicare’s home health benefit provides treatment for beneficiaries who
                    have short- or long-term illnesses or injuries and who are confined to
                    their homes.1 Home health care is intended to reduce the need for
                    hospitalization and institutionalization and to help beneficiaries
                    maintain their independence and quality of life. To qualify for home
                    health services, a Medicare beneficiary must be homebound, be under
                    an established plan of care by a physician, and need at least one home
                    health therapeutic service or intermittent skilled nursing service
                    (e.g., intravenous or intramuscular injections, intravenous feedings).2
                    Services provided by a Medicare HHA include skilled nursing services,
                    therapeutic services (physical and occupational therapy and
                    speech-language pathology), home health aide services, medical social
                    services, and certain medical supplies and equipment.3 These services
                    are provided by the HHA or are provided under arrangements made by
                    the HHA, and they must be ordered and periodically reviewed by a
                    physician. In addition, HHAs must maintain patient clinical records
                    and be licensed pursuant to State and local law. By the end of 2006,
                    there were approximately 8,800 Medicare-certified HHAs nationally.4
                    In recent years, the number of Medicare beneficiaries receiving home
                    health services has grown along with expenditures for those services.
                    From 2001 to 2005, the number of Medicare beneficiaries served by
                    HHAs increased 23 percent. In 2005, HHAs provided services to almost


                      1 Social Security Act ' 1835(a), 42 U.S.C. ' 1395n(a) (defining the term “confined to his
                    home”).
                      2 42 CFR § 409.42.
                      3 Social Security Act ' 1861(m), 42 U.S.C. § 1395x(m).
                      4 CMS Online Survey Certification and Reporting (OSCAR) System as of January 12, 2007.




 OEI-09-06-00040    DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   1
I N T R O D        U C T        I O N


                    3 million Medicare beneficiaries who averaged 31 visits per person.5
                    Expenditures for home health services increased almost 50 percent from
                    $8.6 billion in 2001 to $12.8 billion in 2005.
                    HHA Conditions of Participation
                    All HHAs participating in the Medicare program must be compliant
                    with 15 Medicare Conditions of Participation (CoP) and 69 standards. 6
                    The CoP are intended to ensure the quality of services provided by
                    HHAs. The 15 HHA Medicare CoP fall into two areas: administration
                    and furnishing of services. Twelve of the fifteen CoP are subdivided into
                    standards, which address specific aspects of the condition. For example,
                    the condition for clinical records includes standards that address the
                    retention of records, the protection of records, record reviews, and
                    evaluations of the HHA program. Among the 12 CoP that are
                    subdivided, each condition can have from 1 to 23 standards. Three CoP
                    are not subdivided by standards.7 (See Appendix A for a list of all of the
                    HHA CoP and standards.)
                    Quality-of-care measures. One HHA condition requires Medicare-certified
                    HHAs to report and transmit patient assessment data, within 30 days of
                    completing the assessment, using the reporting Outcome and
                    Assessment Information Set (OASIS).8 The OASIS is a group of data
                    elements collected from each HHA patient used to manage and measure
                    each patient’s care and outcomes. For each HHA, CMS uses a subset of
                    the OASIS data to calculate a score for 41 quality measures.9 CMS
                    provides scores for 12 of the 41 quality measures for each HHA on its
                    Home Health Compare Web site.10 These scores are updated quarterly.




                      5 CMS Health Care Information System data, 2007.
                      6 Social Security Act § 1891(a), 42 U.S.C. § 1395bbb (a); 42 CFR pt. 484 (subparts
                    B and C).
                      7 The three CoP that are not defined further by standards are: qualifying to furnish
                    outpatient physical therapy or speech pathology services
                    (42 CFR § 484.38), medical social services (42 CFR § 484.34), and release of patient
                    identifiable OASIS information (42 CFR § 484.11).
                      8 42 CFR § 484.20.
                      9A list of the 41 quality measures can be found at
                    http://www.cms.hhs.gov/HomeHealthQualityInits/10_HHQIQualityMeasures.asp#TopOfPage.
                    Accessed on April 8, 2008.
                      10 CMS, “Information About Home Health Quality Measures.” Available online at
                    http://www.medicare.gov/HHCompare/Home.asp?dest=NAV|Home|DataDetails#TabTop.
                    Accessed on February 26, 2008.



 OEI-09-06-00040    DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   2
I N T R O D        U C T      I O N


                    HHA Survey Process

                    HHA certification and recertification surveys. Pursuant to section 1891(b) of
                    the Social Security Act, CMS is responsible for ensuring that the HHA
                    CoP and their enforcement are adequate to protect the health and
                    safety of individuals receiving home health services. To fulfill this duty,
                    CMS contracts with State agencies to conduct initial HHA certification
                    and recertification surveys (hereinafter referred to as surveys) to
                    determine CoP compliance.11 The State agency also may conduct a
                    survey at any time in response to complaints from HHA patients or
                    other sources.

                    During surveys, State agency surveyors (hereinafter referred to as
                    surveyors) assess compliance with 7 of the 15 HHA CoP and the
                    individual standards that fall within each, plus one additional HHA
                    standard.12 13 CMS selected these seven CoP and one additional
                    standard because they are associated most closely with patient care.
                    The seven HHA CoP and one standard are:

                        1.	 42 CFR § 484.10 Condition of Participation: Patient Rights

                        2.	 42 CFR § 484.11 Condition of Participation: Release of Patient
                            Identifiable OASIS Information

                        3.	 42 CFR § 484.12 Condition of Participation: Compliance with
                            Federal, State, and Local Laws, Disclosure and Ownership
                            Information, and Accepted Professional Standards and Principles

                        4.	 42 CFR § 484.18 Condition of Participation: Acceptance of
                            Patients, Plan of Care, and Medical Supervision

                        5.	 42 CFR § 484.36 Condition of Participation: Home Health
                            Aide Services

                        6.	 42 CFR § 484.48 Condition of Participation: Clinical Records

                      11 Social Security Act ' 1864(a), 42 U.S.C. § 1395aa (a).
                      12 CMS “State Operations Manual,” Pub. No. 100-07, ch. 2, § 2196.1A (rev. 1,
                    May 21, 2004).
                       13 An HHA may choose initial certification through one of three approved accrediting
                    organizations with deeming authority–the Joint Commission on Accreditation of Healthcare
                    Organizations, the Community Health Accreditation Program, and the Accreditation
                    Commission for Healthcare. HHAs also may elect to be accredited and surveyed by one of the
                    accrediting organizations. CMS “State Operations Manual,” Pub. No. 100-07, ch. 2, § 2210B
                    (rev.1, May 21, 2004) and ch. 1, § 1018D (rev. 1, May 21, 2004). Recently, CMS approved
                    deeming authority for the Accreditation Commission for Healthcare. 71 Fed. Reg. 9564
                    (Feb. 24, 2006).




 OEI-09-06-00040    DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   3
I N T R O D        U C T      I O N


                        7.	 42 CFR § 484.55 Condition of Participation: Comprehensive
                            Assessment of Patients

                        8.	 42 CFR § 484.14(g) Coordination of Patient Services (Standard)

                    To assess those standards relating to patient care, surveyors review a
                    case-mix stratified sample of clinical records and then conduct home
                    visits for patients receiving HHA services.14 According to CMS policy,
                    the number of record reviews and home visits varies based on the total
                    number of unduplicated admissions requiring skilled services within a
                    recent 12-month period.15 For example, an HHA that served between
                    150 and 750 patients within a 12-month period will have a minimum of
                    five to seven record reviews with home visits. In addition, the same
                    HHA will receive 10 record reviews without a home visit.16 Surveyors
                    also conduct several record reviews with and without home visits for
                    patients who each experienced an adverse event outcome (e.g., emergent
                    care for an injury caused by a fall or accident at home).17
                    If an HHA has one or more standard-level or condition-level
                    deficiencies, it is out of compliance and the surveyor provides the HHA
                    with a Statement of Deficiencies and Plan of Correction form (Form
                    CMS-2567) that includes evidence to support the deficiency citation.18
                    The HHA must respond with a plan of correction within 10 calendar
                    days of receiving the form.19 An HHA with standard-level deficiencies is
                    certified as in compliance by the State agency if the facility submits an
                    acceptable plan of correction for achieving compliance within a
                    reasonable period of time, which is generally no longer than 60 days
                    after notification of the deficiencies.20 An HHA with one or more
                    condition-level deficiencies is considered to be providing substandard
                    care and cannot be certified as in compliance by the State agency based
                    solely on a plan of correction.21 In these cases, the HHA is placed on a
                    90-day termination track and is required to submit a “credible


                      14 CMS “State Operations Manual,” Pub. No.                             100-07, ch. 2, § 2200C4 (rev. 1, May 21, 2004).
                      15 CMS “State Operations Manual,” Pub. No.                             100-07, ch. 2, § 2200C5 (rev. 1, May 21, 2004).
                      16 CMS “State Operations Manual,” Pub. No.                             100-07, ch. 2, § 2200C6 (rev. 1, May 21, 2004).
                      17 CMS “State Operations Manual,” Pub. No.                             100-07, ch. 2, §§ 2200C5 and 2200C6 (rev. 1,
                    May 21, 2004).
                      18 CMS “State Operations Manual,” Pub. No. 100-07, ch. 2, §§ 2728 - 2728A (rev. 1,
                    May 21, 2004).
                      19 CMS “State Operations Manual,” Pub. No. 100-07, ch. 2, §' 2728 and 2728B (rev. 1,
                    May 21, 2004).
                      20 CMS “State Operations Manual,” Pub. No. 100-07, ch. 2, § 2728B (rev. 1, May 21, 2004).
                      21 CMS “State Operations Manual,” Pub. No. 100-07, ch. 3, § 3012 (rev. 1, May 21, 2004).




 OEI-09-06-00040    DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   4
I N T R O D        U C T       I O N


                    allegation of compliance” before the State agency conducts at least one
                    revisit to determine whether compliance or acceptable progress has
                    been achieved.22 23
                    Provisions in the Omnibus Budget Reconciliation Act of 1987 (OBRA
                    1987) directed CMS to implement intermediate sanctions against HHAs
                    that are no longer in compliance with Federal requirements.24 The
                    Secretary of the Department of Health and Human Services was
                    directed to develop and implement intermediate sanctions no later than
                    April 1, 1989, which were to include civil money penalties, suspension of
                    Medicare payments, and the appointment of temporary managers to
                    problem HHAs.25 CMS proposed intermediate sanctions in 1991 but
                    never finalized the regulation.26 As a result, the only remedy currently
                    available to CMS in response to HHA noncompliance is termination.
                    Survey frequency. As mandated in statute, an HHA is subject to a
                    recertification survey no later than 36 months from the previous
                    recertification survey.27 Prior to fiscal year 2006, an HHA’s survey
                    frequency could vary from every 12 months to every 36 months depending
                    on the HHA’s survey results.28 For example, a new HHA was subject to a
                    survey every 12 months for the first 3 years. If the HHA was
                    deficiency-free for those 3 years, then it was placed on a 36-month survey
                    schedule unless it received any deficiency citations on a subsequent
                    survey. In addition to conducting routine scheduled surveys, State
                    agencies annually selected and surveyed a 5-percent random sample of
                    HHAs on the 36-month survey cycle.29 (See Appendix B for further
                    information on variable survey cycles prior to fiscal year 2006.)




                      22 Ibid. When an immediate jeopardy to patient health and safety is documented, the State
                    agency will initiate a 23-day termination track. CMS “State Operations Manual,”
                    Pub. No. 100-07, ch. 3, § 3010B (rev. 1, May 21, 2004).
                      23 “Credible allegation of compliance” is defined as “a statement or documentation: that is
                    realistic in terms of the possibility of corrective action being accomplished between the exit
                    conference and the date of allegation; and that indicates resolution of the problems.” CMS
                    “State Operations Manual,” Pub. No. 100-07, ch. 3, § 3016A (rev. 1, May 21, 2004).
                      24 OBRRA of 1987, P.L. No. 100-203 ' 4023, Social Security Act ' 1891(e)–(f),
                    42 U.S.C. 1395bbb (e)–(f).
                      25 Social Security Act § 1891(f)(1).
                      26 56 Fed. Reg. 37054 (Aug. 2, 1991).
                      27 Social Security Act § 1891(c)(2)(A). A recertification survey is a “standard survey” as it is
                    referred to in the statute.
                      28 CMS “State Operations Manual,” Pub. No. 100-07, ch. 2, § 2195 (rev. 1, May 21, 2004).
                      29 CMS “State Operations Manual,” Pub. No. 100-07, ch. 2, § 2195.E (rev. 1, May 21, 2004).




 OEI-09-06-00040    DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   5
I N T R O D        U C T         I O N


                    Since fiscal year 2006, CMS simplified its variable survey cycle with a
                    new system.30 Instead of being subjected to variable survey cycles, all
                    HHAs now are subject to recertification surveys at least once every
                    36 months. In addition to these surveys, CMS uses a 5-percent targeted
                    sample that replaced the annual 5-percent random sample. The
                    targeted sample is generated by an algorithm that identifies HHAs at
                    greatest risk of failing to provide quality care. (See Appendix C for
                    further information on the algorithm.) CMS indicates that it is using
                    targeted sampling to utilize limited Medicare resources more
                    effectively.31 Also, CMS no longer requires State agencies to survey
                    HHAs 12 months after the initial certification survey.


                    METHODOLOGY
                    Scope
                    As of January 11, 2007, CMS’s OSCAR contained records for 18,731
                    Medicare-certified HHAs. OSCAR maintains survey deficiency
                    information for the four most recent surveys. To limit our analysis to
                    active HHAs, we excluded 9,908 HHAs with termination dates. Also,
                    we excluded 157 HHAs with deemed status because the State agency
                    does not conduct routine recertification surveys on these HHAs.
                    Deemed status is received when an HHA chooses certification through
                    an approved accreditation organization. After we excluded deemed
                    HHAs and those with termination dates, 8,666 active Medicare-certified
                    HHAs remained in our study population.
                    Analysis
                    In this report, we refer to HHAs that have at least one deficiency
                    citation repeated on three consecutive surveys as cyclically deficient.
                    For the purpose of describing our methodology, we refer to the four
                    surveys in OSCAR numerically as 1, 2, 3, and 4 – Survey 1 being the
                    most recent survey conducted of that HHA and Survey 4 being the
                    oldest survey in OSCAR.




                      30 CMS, Division of Survey and Certification, “Quality Assurance for the Medicare
                    & Medicaid Programs, FY 2006 Mission & Priority Document,” August 5, 2005. Through
                    2008, CMS continues to apply this new system. CMS, Division of Survey and Certification,
                    “Quality Assurance for the Medicare & Medicaid Programs, FY 2008 Mission & Priority
                    Document,” August 8, 2007.
                      31 Ibid.




 OEI-09-06-00040    DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   6
I N T R O D             U C T         I O N


                          For each of the two findings in this report, we analyzed data for a
                          different subset of HHAs as shown in Table 1 below. We identified
                          cyclically deficient HHAs for each subset.



     Table 1. Subsets of HHAs in the Report

                                                                                                                   At Least One                           At Least One
                                                            Number of Active                               Deficiency Repeated                 Deficiency Repeated on
     Type of HHA Subset                               Medicare-Certified HHAs                              on Survey 1, 2, and 3                      Survey 2, 3, and 4
     HHAs with three or four surveys
                                                                                      5,661                                           873
     (Subset used for the first finding.)
     HHAs with four surveys
                                                                                      5,011                                                                         655
     (Subset used for the second finding.)
   Source: Office of Inspector General analysis of CMS survey data, 2008




                          To determine the current extent of cyclical deficiency among
                          Medicare-certified HHAs for the first finding, we analyzed OSCAR
                          results from Surveys 1, 2, and 3 (i.e., the three most recent surveys). Of
                          the 8,666 active Medicare-certified HHAs in OSCAR, we excluded
                          3,005 HHAs that did not have at least three consecutive surveys with at
                          most 42 months between surveys or did not have surveys within
                          42 months of January 11, 2007.32 We chose 42 months, which includes
                          the 36-month survey cycle and up to 6 months for the State agency to
                          complete the survey, as the maximum amount of time between
                          surveys.33 From the remaining 5,661 HHAs, we identified 873 HHAs
                          that each had at least one condition- or standard-level deficiency
                          citation repeated on Survey 1, 2, and 3.

                          As part of the second finding, to determine how cyclically deficient
                          HHAs performed on the subsequent survey, we identified each HHA
                          that had at least one deficiency repeated on Survey 2, 3, and 4
                          (i.e., cyclically deficient on the three consecutive surveys prior to the
                          most recent survey). We then compared the survey performance on
                          Survey 1 (the most recent survey) of these cyclically deficient HHAs to
                          all other HHAs. Of the 8,666 active Medicare-certified HHAs in
                          OSCAR, we excluded 3,655 HHAs that did not have four consecutive
                          surveys with at most 42 months between surveys or did not have

                             32 We contacted CMS’s Region V office to determine why some HHAs had current surveys
                          longer than 3 years ago. The regional office indicated that either the HHA had deemed status
                          or the State agencies had not entered the most recent survey results into OSCAR.
                            33 Currently, there is no CMS guidance regarding timely uploading of survey results into
                          OSCAR.



 OEI-09-06-00040          DEFICIENCY HISTORY    AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S                 7
I N T R O D        U C T      I O N


                    surveys within 42 months of January 11, 2007. From the remaining
                    5,011 HHAs, we identified 655 HHAs that each had at least one
                    condition- or standard-level deficiency citation repeated on Surveys 2, 3,
                    and 4. To determine the use of deficiency history in the oversight of
                    HHAs, these HHAs also were used in an analysis with CMS’s 5-percent
                    targeted sample for fiscal year 2006.

                    In addition, we conducted structured interviews with staff from CMS’s
                    Survey and Certification Group and surveyors from CMS’s regional
                    offices and State agencies. We also visited several HHAs to gather
                    information about the survey process and HHA operations.
                    Limitations
                    Our study is limited to the information in OSCAR. This study did not
                    assess the survey process or the accuracy of CMS data in OSCAR.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-09-06-00040    DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   8
   F   I N D I N G        S
 Δ         F I N D I N G S



      Fifteen percent of HHAs repeated the same                As of January 11, 2007, 873 HHAs
deficiency citation on three consecutive surveys               (15 percent) repeated at least
                                                               one deficiency citation on each of
                         their three most recent surveys. Many cyclically deficient HHAs
                         repeated more than one deficiency citation across multiple surveys. Of
                         the 873 cyclically deficient HHAs, 366 (42 percent) repeated at least two
                         of the same citations on each of their three most recent surveys, and
                         47 (5 percent) repeated the same five or more citations. Most cyclically
                         deficient HHAs repeated standard-level citations; only six HHAs had a
                         condition-level deficiency repeated on each of their three most recent
                         surveys.
                         The most frequently repeated deficiency citation is related to patient plans
                         of care
                         The 10 most frequently repeated deficiency citations, among cyclically
                         deficient HHAs, are standard-level deficiencies and account for
                         79 percent of all repeated citations. (See Table 2 on the next page for a
                         list of the top 10 deficiencies.)

                         Four of the ten deficiencies (G158, G159, G164, and G165) are
                         associated with standards in the acceptance of patients, plan of care,
                         and medical supervision condition.34 These four deficiency citations
                         account for 48 percent of all repeated citations among cyclically deficient
                         HHAs. Of 873 cyclically deficient HHAs, 404 (46 percent) received a
                         repeated citation for not demonstrating that the written plan of care
                         was reviewed by the patient’s physician (G158). The other three
                         deficiency citations show that the written plan of care did not cover
                         pertinent diagnoses (G159), the agency staff did not alert the physician
                         of changes in the patient’s condition (G164), and the agency staff did not
                         administer drugs or treatments as ordered by the physician (G165).




                           34 Each standard and condition is affiliated with a specific G tag (e.g., G158). CMS uses
                         G tags to identify deficiencies on the Statement of Deficiencies and Plan of Correction form.



       OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   9
        F      I N D I N G               S        



   Table 2. The 10 Most Frequently Repeated Standard- and Condition-Level Deficiency Citations
            Among Cyclically Deficient HHAs
                                                                                                                                         Percentage of
                                                                                                                                              All 1,662           Of the 873 Cyclically
                                                                                                                                             Repeated         Deficient HHAs, Number
                                                                                                                                            Deficiency         of HHAs That Repeated
  Standard-Level Deficiency Citation* (associated condition) (G tag)                                                                         Citations                    the Citation**
  1. 	 Written plan of care established and periodically reviewed by a doctor. (Acceptance of
                                                                                                                                                     24.3%                         404
       patients, plan of care, and medical supervision.) (G158)
  2. 	 Plan of care covers all pertinent diagnoses. (Acceptance of patients, plan of care, and
                                                                                                                                                     15.3%                         255
       medical supervision.) (G159)
  3. 	 Clinical record maintained in accordance with accepted professional standards.
                                                                                                                                                     12.6%                         209
       (Clinical records.) (G236)
  4. 	 The comprehensive assessment must include a review of all medications the patient is
                                                                                                                                                       8.5%                        141
       currently taking. (Comprehensive assessment of patients.) (G337)
  5. 	 Agency professional staff promptly alerts the physician to any changes in the patient’s
                                                                                                                                                       5.2%                          86
       condition. (Acceptance of patients, plan of care, and medical supervision.) (G164)
  6. 	 Drugs and treatments are administered by agency staff only as ordered by the
                                                                                                                                                       3.0%                          50
       physician. (Acceptance of patients, plan of care, and medical supervision.) (G165)
  7. 	 All personnel furnishing services maintain liaison to ensure that their efforts are
       coordinated effectively and support the objectives outlined in the plan of care.                                                                2.9%                          49
       (Organization, services, and administration.) (G143)
  8. 	 Registered nurse regularly reevaluates the patient’s nursing needs. (Skilled nursing
                                                                                                                                                       2.5%                          41
       services.) (G172)
  9. 	 Registered nurse (or another professional described in paragraph (d)(1) of this section)
       must make an onsite visit to the patient’s home no less frequently than every 2 weeks.                                                          2.5%                          41
       (Home health aide services.) (G229)
  10. A written summary report for each patient is sent to the attending physician at least
                                                                                                                                                       2.4%                          40
       every 60 days. (Organization, services, and administration.) (G145)
       Total                                                                                                                                         79.2%
Source: Office of Inspector General analysis of CMS survey data, 2007.
*For complete descriptions, refer to CMS’s “State Operations Manual,” Pub. No. 100-07, Appendix B (rev. 11, August 12, 2005).
**The column “Of the 873 Cyclically Deficient HHAs, Number of HHAs That Repeated the Citation” does not sum to 873 because HHAs may be cited for more than
one deficiency.




                                       Cyclically deficient HHAs received twice as many deficiency citations
                                       On the three most recent surveys, cyclically deficient HHAs received, on
                                       average, 11.3 deficiency citations per survey compared to 5.7 citations
                                       for those HHAs that did not repeat citations. The most frequently cited
                                       deficiency citations across the three surveys are similar for cyclically
                                       deficient HHAs and those HHAs that did not repeat citations. (See
                                       Appendix D for a list of standard-level deficiencies that account for half
                                       of all deficiencies across the three most recent surveys for cyclically
                                       deficient HHAs.)
                                       Cyclically deficient HHAs are concentrated in several States
                                       Of the cyclically deficient HHAs, 64 percent (556 of 873) are located in
                                       six States – California, Florida, Illinois, Iowa, Michigan, and Texas.


            OEI-09-06-00040            DEFICIENCY HISTORY     AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S              10
F   I N D I N G        S


                      However, only 30 percent of all HHAs in our study population are from
                      these six States. In California, Illinois, and Michigan, more than half of
                      HHAs are cyclically deficient. Highly populated areas within five of the
                      six States (except Iowa) contain a greater percentage of cyclically
                      deficient HHAs compared to the rest of the State. For example, three
                      metropolitan areas in California contain 76 percent (61 of 80) of
                      cyclically deficient HHAs in the State.35 Approximately 68 percent of all
                      HHAs in California are in these three metropolitan areas. One
                      metropolitan area in Illinois contains 74 percent (117 of 159) of
                      cyclically deficient HHAs in the State, whereas only 55 percent of HHAs
                      in Illinois are in this metropolitan area. (See Appendix E for the
                      distribution of cyclically deficient HHAs in the States mentioned above.)



                                                             CMS conducts surveys as part of
     CMS oversight of HHAs could be improved
                                                             its oversight of HHAs. Currently,
                      State agencies conduct recertification surveys at least once every
                      36 months for each HHA. In addition, State agencies annually conduct
                      surveys of a 5-percent targeted sample of at-risk HHAs. Prior to each
                      survey, surveyors are required to review previous survey data in
                      addition to outcome reports and complaint data.36 However, surveyors
                      are not required to review all past survey data in OSCAR. We found
                      that deficiency history, beyond the most recent survey, can be an
                      important indicator of performance on the next survey.
                      Cyclically deficient HHAs performed worse on the next survey than
                      other HHAs
                      We identified 655 cyclically deficient HHAs that repeated at least one
                      deficiency on the three consecutive surveys prior to the most recent
                      survey. Chart 1 on the next page shows that they went on to receive
                      more deficiencies, on average, than other HHAs on the most recent
                      survey. This difference was more pronounced among HHAs with at
                      least six deficiencies on the prior survey.




                         35 A “metropolitan area” refers to a metropolitan statistical area as defined by the Office of
                      Management and Budget and based on U.S. Census Bureau data. A metropolitan area has at
                      least one urbanized area with a population of 50,000 or more.
                        36 CMS “State Operations Manual,” Pub. No. 100-07, ch. 2, § 2200A (rev. 1, May 21, 2004).




    OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   11
 F   I N D I N G              S                                      




                  Chart 1. Cyclically Deficient HHAs, on Average, Received More
                           Deficiencies on the Next Survey Than Other HHAs

                                                                10
                                                                                                                                                                n=364
                                                                9




                        Average number of deficiencies on the
                                                                8

                                                                7


                                 most recent survey
                                                                6

                                                                5
                                                                                       n=481                                                                                   n=3,875
                                                                4

                                                                3
                                                                                                               n=291
                                                                2

                                                                1

                                                                0
                                                                                                  0 to 5                                                                6 or more
                                                                                                      Number of deficiencies on the prior survey

                                                                                                                   Cyclically Deficient             All other HHAs

                  Source: Office of Inspector General analysis of CMS survey data, 2008.




                  Cyclically deficient HHAs performed worse on the next survey than
                  at-risk HHAs without a history of cyclical deficiencies
                  Although CMS’s algorithm identifies at-risk HHAs, it can target HHAs
                  better by including deficiency history information such as repeated
                  deficiency citations. As shown in Chart 2 on the next page, cyclically
                  deficient HHAs that were not identified as at-risk by CMS’s algorithm
                  for fiscal year 2006 received, on average, 6.9 deficiencies on their most
                  recent survey. This is greater than the average of 3.7 deficiencies
                  among at-risk HHAs without a history of cyclical deficiencies.37




                     37 We excluded 33 HHAs for which the prior survey (Survey 2) occurred after
                  October 1, 2005, because information about cyclical deficiencies would not have been available
                  when CMS identified at-risk HHAs for fiscal year 2006. We also excluded
                  2,711 HHAs for which the most recent survey (Survey 1) occurred before October 1, 2005,
                  because we wanted to limit this analysis to HHAs for which performance on the most recent
                  survey was unknown at the time CMS identified at-risk HHAs for fiscal year 2006.



OEI-09-06-00040   DEFICIENCY HISTORY                                     AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S                    12
F   I N D I N G        S


                      Chart 2. 	Cyclically Deficient HHAs Performed Worse Among Both
                                At-Risk HHAs and Not At-Risk HHAs

                                                                    9


                                                                                    n=92
                                                                    8




                            Average number of deficiencies on the
                                                                                                                                                             n=260
                                                                    7




                                     most recent survey
                                                                    6



                                                                    5


                                                                                                         n=189
                                                                    4


                                                                                                                                                                         n=1,726
                                                                    3



                                                                    2



                                                                    1



                                                                    0

                                                                        CMS fiscal year 2006 at-risk group                                                  Not in at-risk group

                                                                                                              Cyclically Deficient             All Other HHAs

                      Source: Office of Inspector General analysis of CMS survey data, 2008.




                      CMS’s sanction options for HHAs with deficiency citations are limited
                      For HHAs with one or more condition-level deficiencies, CMS has no
                      sanction other than initiating a termination track. An HHA that
                      receives one or more condition-level deficiencies is required to submit a
                      plan of correction and is subject to at least one revisit by the State
                      agency to determine whether compliance has been achieved. An HHA
                      that receives only standard-level deficiencies is required to submit an
                      acceptable plan of correction before being certified as in compliance.
                      Although provisions in the OBRA 1987 directed CMS to implement
                      intermediate sanctions for HHAs that failed to correct deficiencies, CMS
                      did not finalize the regulation. Therefore, termination from the
                      Medicare program remains the only Federal sanction for HHAs with
                      deficiency citations, and it is used only rarely. In 2006, there were only
                      21 involuntary HHA terminations.




    OEI-09-06-00040   DEFICIENCY HISTORY                                 AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S              13
F   I N D I N G        S
Δ       R E C O M M E N D A T I O N S




                      An analysis of HHA deficiency history data shows that 15 percent of
                      HHAs are cyclically deficient. Furthermore, HHAs with repeated
                      deficiencies perform worse on subsequent surveys. However, CMS does
                      not use deficiency history in its oversight of HHAs. Also, for HHAs with
                      one or more condition-level deficiencies, CMS has no sanction other
                      than initiating a termination track. Based on our findings, we
                      recommend that CMS:
                      Use Existing Survey Data To Identify Patterns of Deficiency Citations and
                      At-Risk HHAs
                      CMS should require surveyors to review all available survey data prior
                      to each upcoming survey. Because CMS uses the number of deficiencies
                      as an element to identify at-risk HHAs, cyclically deficient HHAs could
                      be considered at risk because they generally receive more citations.
                      Identifying repeat deficiency areas could help surveyors and HHAs
                      identify areas for improvement. In addition, CMS could focus efforts on
                      those States with large numbers of cyclically deficient HHAs.

                      CMS should include multiple survey results in its algorithm that
                      identifies the targeted sample of HHAs that are at risk of providing poor
                      quality of care. Because HHAs with a history of cyclical deficiencies
                      perform worse on subsequent surveys, deficiency history can be an
                      important indicator of future performance. Currently, the algorithm
                      does not include results from surveys conducted prior to the most recent
                      survey. As a result, CMS and surveyors may miss HHAs in need of
                      more frequent review. CMS could incorporate prior survey data from
                      OSCAR into the algorithm.
                      Implement Intermediate Sanctions as Directed by the OBRA 1987
                      Currently, termination from the Medicare program is the only sanction
                      for poorly performing HHAs. We found that the most frequently cited
                      deficiency for cyclically deficient HHAs identify problems related to
                      patient plans of care. In some cases, termination may be the
                      appropriate action. However, less severe sanction options could be
                      effective in addressing performance problems that do not immediately
                      jeopardize patient health and safety. Options for additional sanctions
                      may include civil money penalties, suspension of all or part of Medicare
                      payments, and appointment of temporary management for cyclically
                      deficient HHAs.




    OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   14
R   E C O        M M E N D A T              I O N                 S              




                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS generally concurred with our recommendations. CMS indicated
                      that during the last several years, it has implemented improvements to
                      the oversight of HHAs, many of which address the issue of repeated
                      deficiencies. These changes include: (1) oversight of branch locations,
                      (2) the addition of new OASIS reports, (3) increased training of
                      surveyors, (4) identification of a targeted sample of HHAs, and (5) the
                      development of a State Performance Standards System.

                      CMS concurred, in part, with the recommendation that the agency use
                      existing survey data to identify patterns of deficiency citations and
                      at-risk HHAs; specifically, that CMS should require surveyors to review
                      all available survey data prior to each upcoming survey. CMS notes
                      that section 2200A of the “State Operations Manual” requires surveyors
                      to review complaint data, previous survey data, and reports generated
                      by the OASIS system when preparing to conduct an onsite survey. The
                      agency will issue the final version of this report to the regional offices
                      and State survey agencies and reinforce the necessity of reviewing
                      previous survey data. We recommend that CMS specifically instruct
                      surveyors to review data beyond the most recent survey and to highlight
                      patterns of noncompliance such as repeat deficiencies across multiple
                      surveys.

                      CMS does not concur with the second part of this recommendation: that
                      the agency include multiple survey results in the algorithm that
                      identifies a targeted sample of HHAs that are at risk of providing poor
                      quality of care. CMS suggests that including an algorithm of three
                      standard surveys would result in newer HHAs, among others, not being
                      included in the targeting process because these HHAs lack historical
                      survey data. We excluded HHAs that did not meet the study criteria in
                      order to determine clearly the relationship between repeat deficiencies
                      and subsequent survey performance. However, CMS would not need to
                      exclude any HHAs when using an algorithm that makes use of
                      historical data. CMS could modify the algorithm to include any
                      available historical survey data that have been weighted, as
                      appropriate. HHAs with fewer than four surveys included in OSCAR
                      would be assessed based on the survey data that are available. Our
                      analysis demonstrates that historical data can improve CMS’s ability to
                      identify at-risk HHAs. CMS should use all available data to target
                      those HHAs most at risk of providing poor quality of care.



    OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   15
R   E C O        M M E N D A T              I O N                 S


                      As an alternative to modifying the algorithm to include historical survey
                      data, CMS could conduct analysis similar to that described in this
                      report to identify HHAs with repeated deficiencies across multiple
                      surveys. CMS could provide this information to State survey agencies
                      annually to help surveyors identify HHAs that may be in need of closer
                      review, whether or not they appear in the targeted sample.

                      CMS concurred with the recommendation to implement intermediate
                      sanctions as directed by the OBRA 1987. The agency indicated that
                      changes in law and other regulations, together with the demands of
                      additional improvement efforts, have impeded promulgation of the final
                      rule. CMS outlined several initiatives it has undertaken during this
                      time to address HHA performance and compliance.

                      CMS also indicated that one finding not addressed in detail in the
                      recommendations may prove useful in targeting HHAs. CMS may rely
                      on information that cyclical deficient HHAs are concentrated in six
                      States to assist them in targeting future surveys.
                      We revised our description of HHAs’ statutorily required survey
                      frequency to address CMS’s technical comments.

                      The text of CMS’s comments is available in Appendix F.




    OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   16
Δ   A P P E N D I X ~ A

                  Medicare HHA Conditions of Participation and Standards


                   * Conditions reviewed in all home health agency certification and recertification 

                   surveys. CMS State Operations Manual, Pub. No. 100-07, ch. 2, § 2196.1A (rev. 1, 

                   May 21, 2004).

                   ** This is a general description of the standard because a title for the standard is not 

                   provided. 




                  Administration
                  42 CFR § 484.10 Condition of Participation: Patient Rights *

                      (a) Standard: Notice of Rights

                      (b) Standard: Exercise of Rights and Respect for Property and Person

                      (c) Standard: 	Right to be Informed and to Participate in Planning
                          Care and Treatment

                      (d) Standard: Confidentiality of Medical Records

                      (e) Standard: Patient Liability for Payment

                      (f) Standard: Home Health Hotline

                  42 CFR § 484.11 Condition of Participation: Release of Patient
                     Identifiable Outcome and Assessment Information Set (OASIS)
                     Information *

                  42 CFR § 484.12 Condition of Participation: C
                                                              	 ompliance with Federal,
                     State, and Local Laws, Disclosure and Ownership Information, and
                     Accepted Professional Standards and Principles *

                      (a) Standard: 	Compliance with Federal, State, and Local Laws
                          and Regulations

                      (b) Standard: Disclosure of Ownership and Management Information

                      (c) Standard: 	Compliance with Accepted Professional Standards
                          and Principles

                  42 CFR § 484.14 Condition of Participation: O
                                                              	 rganization, Services,
                     and Administration

                      (a) Standard: Services Furnished

                      (b) Standard: Governing Body

                      (c) Standard: Administrator

                      (d) Standard: Supervising Physician or Registered Nurse

                      (e) Standard: Personnel Policies

OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   17
A   P   P E N D       I X      ~      A


                            (f) Standard: Personnel Under Hourly or Per Visit Contracts

                            (g) Standard: Coordination of Patient Services *

                            (h) Standard: Services Under Arrangement

                            (i) Standard: 	Institutional Planning

                               (i)(1) Standard: Annual Operating Budget

                               (i)(2) Standard: Capital Expenditure Plan

                               (i)(3) Standard: Preparation of Plan and Budget

                               (i)(4) Standard: Annual Review of Plan and Budget

                            (j) Standard: Laboratory Services

                      42 CFR § 484.16 Condition of Participation: 	Group of Professional
                         Personnel

                            (a) Standard: Advisory and Evaluation Function

                      42 CFR § 484.18 Condition of Participation: A
                                                                  	 cceptance of Patients,
                         Plan of Care, and Medical Supervision *

                            (a) Standard: Plan of Care

                            (b) Standard: Periodic Review of Plan of Care

                            (c) Standard: Conformance with Physician Orders

                      42 CFR § 484.20 Condition of Participation: Reporting OASIS Information

                            (a) Standard: Encoding OASIS Data

                            (b) Standard: Accuracy of Encoded OASIS Data

                            (c) Standard: Transmittal of OASIS Data

                            (d) Standard: Data Format


                      Furnishing of Services
                      42 CFR § 484.30 Condition of Participation: Skilled Nursing Services

                            (a) Standard: Duties of the Registered Nurse

                            (b) Standard: Duties of the Licensed Practical Nurse

                      42 CFR § 484.32 Condition of Participation: Therapy Services

                            (a) Standard: 	Supervision of Physical Therapy Assistant and
                                Occupational Therapy Assistant

                            (b) Standard: Supervision of Speech Therapy Services

    OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   18
A P P E N D        I X      ~      A


                   42 CFR § 484.34 Condition of Participation: Medical Social Services

                   42 CFR § 484.36 Condition of Participation: Home Health Aide Services *

                         (a) Standard: 	Home Health Aide Training

                            (a)(1) Standard: Content and Duration of Training

                            (a)(2) Standard: Conduct of Training

                            (a)(3) Standard: Documentation of Training

                         (b) Standard: 	Competency Evaluation and In-Service Training

                            (b)(1) Standard: Applicability

                            (b)(2) Standard: Content and Frequency of Evaluations and
                                   Amount of In-Service Training

                            (b)(3) Standard: Conduct of Evaluation and Training

                            (b)(4) Standard: Competency Determination

                            (b)(5) Standard: Documentation of Competency Evaluation

                            (b)(6) Standard: Effective Date

                         (c) Standard: 	Assignment and Duties of the Home Health Aide

                            (c)(1) Standard: Assignment

                            (c)(2) Standard: Duties

                         (d) Standard: 	Supervision

                            (d)(1) Standard: Supervisory Visit **

                            (d)(2) Standard: On-site Visit for Patients Receiving Skilled
                                   Nursing Care **

                            (d)(3) Standard: On-site Visit for Patients Not Receiving Skilled
                                   Nursing or Rehabilitation Therapy Services **

                            (d)(4) Standard: Home Health Aide Services Not Provided by an
                                   Employee of the Agency **

                                   (d)(4)(i) Standard: Ensuring Overall Quality of Care Provided
                                             by Aide **

                                   (d)(4)(ii) Standard: Supervision of Aide’s Services **

                                   (d)(4)(iii) Standard: Ensuring Home Health Aides Meet
                                               Training Requirements **

                         (e) Standard: Personal Care Attendant: Evaluation Requirements


 OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   19
A   P   P E N D    I X ~       A

                  42 CFR § 484.38 Condition of Participation: Qualifying to Furnish
                     Outpatient Physical Therapy or Speech Pathology Services

                  42 CFR § 484.48 Condition of Participation: Clinical Records *

                      (a) Standard: Retention of Records

                      (b) Standard: Protection of Records

                  42 CFR § 484.52 Condition of Participation: E
                                                              	 valuation of the Agency's
                     Program

                      (a) Standard: Policy and Administrative Review

                      (b) Standard: Clinical Record Review

                  42 CFR § 484.55 Condition of Participation: C
                                                              	 omprehensive
                     Assessment of Patients *

                      (a) Standard: 	Initial Assessment Visit

                           (a)(1) Standard: Determine Immediate Care and Support and
                                  Medicare Eligibility **

                           (a)(2) Standard: Visit by Rehabilitation Skilled Professional **

                      (b) Standard: Completion of the Comprehensive Assessment

                      (c) Standard: Drug Regimen Review

                      (d) Standard: Update of the Comprehensive Assessment
                      (e) Standard: Incorporation of OASIS Data Items




OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   20
Δ   A P P E N D I X ~ B


                  HHA Survey Cycles Prior to Fiscal Year 2006
                  Prior to fiscal year 2006, the Centers for Medicare & Medicaid Services
                  (CMS) assigned home health agencies (HHA) a survey frequency based
                  on their most recent survey performance.38 Surveyors generally
                  conducted unannounced recertification surveys every 12 to 36 months
                  based on their Medicare enrollment and survey history.39 In addition to
                  conducting routine surveys, State agencies annually selected a
                  5-percent random sample of HHAs on the 36-month survey cycle. This
                  random sample of HHAs received a recertification survey within 16 to
                  20 months following its last recertification survey.40
                  If an HHA was not out of compliance with any Conditions of
                  Participation (CoP) during the first 3 years after the HHA opened or
                  changed ownership, then the HHA was placed on a 36-month
                  recertification survey cycle. An HHA remained on a 36-month
                  recertification survey cycle if (1) no condition-level deficiencies were out
                  of compliance in any of the previous three recertification surveys; (2) no
                  standard-level deficiencies were cited under the acceptance of patients,
                  plan of care, and medical supervision condition (42 CFR § 484.18) or the
                  comprehensive assessment of patients condition (42 CFR § 484.55) in
                  the previous survey; and (3) no complaints resulted in deficiency
                  citations since the previous survey.41
                  An HHA that failed to meet at least one of the CoP was considered to be
                  providing substandard care and required more scrutiny. If the HHA
                  came back into compliance, it received a survey within 4 to 6 months
                  from the date compliance was established.42 If the HHA maintained
                  compliance, then it was placed on a 12-month survey cycle until the
                  HHA received no condition-level deficiency citations for at least
                  2 consecutive years.




                    38 CMS “State Operations Manual,” Pub. No. 100-07, ch. 2, § 2195 (rev. 1, May 21, 2004).
                    39 Beginning in 1999, the time between surveys for most HHAs increased from a range of
                  9 to 15 months up to 36 months.
                    40 CMS “State Operations Manual,” Pub. No. 100-07, ch. 2, § 2195.E (rev. 1, May 21, 2004).
                    41 CMS “State Operations Manual,” Pub. No. 100-07, ch. 2, § 2195.A (rev. 1, May 21, 2004).
                    42 CMS “State Operations Manual,” Pub. No. 100-07, ch. 2, § 2195.D (rev. 1, May 21, 2004).




OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   21
Δ   A P P E N D I X ~ C

                  CMS’s Algorithm To Identify Targeted Sample of At-Risk HHAs
                  To produce the 5-percent targeted sample, the Centers for Medicare &
                  Medicaid Services (CMS) now applies an algorithm that identifies
                  at-risk home health agencies (HHA) in each State. For each active HHA
                  that is not due for a 36-month survey, the algorithm assigns a survey
                  priority score that is comprised of the following six data elements:

                      1.	 Total number of standard-level deficiencies for the HHA on the
                          most recent survey;

                      2.	 Total number of condition-level deficiencies for the HHA on the
                          most recent survey;
                      3.	 Total number of standard-level deficiencies on the most recent
                          survey common to closed/terminated HHAs;

                      4.	 Total number of risk-adjusted quality improvement outcomes
                          (e.g., improvement in upper body dressing) less than a
                          calculated threshold value as determined by CMS;

                      5.	 Total number of non-risk-adjusted quality improvement
                          outcomes (e.g., improvement in cognitive function) less than a
                          calculated threshold value as determined by CMS; and

                      6.	 Total number of adverse events deemed “worse” than a 

                          calculated threshold value as determined by CMS.43

                  The algorithm generates a score that CMS uses to identify HHAs that
                  are at risk of providing poor quality of care. At the beginning of each
                  fiscal year, CMS shares a targeted list with each State agency that is
                  comprised of the 10 percent of HHAs that have the highest
                  (i.e., worst) scores in the State. Using CMS’s targeted list, State
                  agencies then apply their additional knowledge of the HHAs to select
                  the final 5-percent targeted sample for survey.44 The 36-month survey
                  clock will be reset for HHAs selected for the targeted sample.




                    43 University of Colorado at Denver and Health Sciences Center, “Improving Protocols for
                  Home Health Agency Assessment in the Survey Process, Appendix E: Survey Priority Score
                  Algorithm,” June 2006.
                    44 Quality Assurance for the Medicare & Medicaid Programs: FY 2006 Mission & Priority
                  Document, CMS, Survey and Certification Group, Center for Medicaid and State Operations,
                  p. 11, August 2005.



OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   22
        Δ                A P P E N D I X ~ D

   Standard-Level Deficiency Citations That Account for Half of All Deficiencies Across the Three Most
   Recent Surveys for Cyclically Deficient HHAs (n=873)
                                                                                                                                                                           Percentage of
                                                                                                                                                                  Deficiency Citations for
                                                                                                                                                                      Cyclically Deficient
  Deficiency Citation (G tag)*                                                                                                                                                      HHAs
  1. 	 Care follows a written plan of care established and periodically reviewed by a doctor of medicine,
                                                                                                                                                                                    7.5%
        osteopathy, or podiatric medicine. (G158)
  2. 	 The plan of care developed in consultation with the agency staff covers all pertinent diagnoses, including
        mental status, types of services and equipment required, frequency of visits, prognosis, rehabilitation
        potential, functional limitations, activities permitted, nutritional requirements, medications and treatment,                                                               6.0%
        any safety measures to protect against injury, instructions for timely discharge or referral, and any other
        appropriate items. (G159)
  3. 	 A clinical record containing pertinent past and current findings in accordance with accepted professional
        standards is maintained for every patient receiving home health services. In addition to the plan of care,
        the record contains appropriate identifying information; name of physician; drug, dietary, treatment, and                                                                   5.5%
        activity orders; signed and dated clinical and progress notes; copies of summary reports sent to the
        attending physician; and a discharge summary. (G236)
  4. 	 The comprehensive assessment must include a review of all medications the patient is currently using in
        order to identify any potential adverse effects and drug reactions, including ineffective drug therapy,
                                                                                                                                                                                    3.6%
        significant side effects, significant drug interactions, duplicate drug therapy, and noncompliance with drug 

        therapy. (G337)

  5. 	 Agency professional staff promptly alerts the physician to any changes that suggest a need to alter the
                                                                                                                                                                                    3.5%
        plan of care. (G164)
  6. 	 The registered nurse (or another professional described in paragraph (d)(1) of this section) must make
                                                                                                                                                                                    2.9%
        an onsite visit to the patient’s home no less frequently than every 2 weeks. (G229)
  7. 	 Drugs and treatments are administered by agency staff only as ordered by the physician with the
        exception of influenza and pneumococcal polysaccharide vaccines, which may be administered per
                                                                                                                                                                                    2.7%
        agency policy developed in consultation with a physician, and after an assessment of considerations. 

        (G165) 

  8. 	 All personnel furnishing services maintain liaison to ensure that their efforts are coordinated effectively
                                                                                                                                                                                    2.7%
        and support the objectives outlined in the plan of care. (G143)
  9. 	 A written summary report for each patient is sent to the attending physician at least every 60 days.
                                                                                                                                                                                    2.5%
        (G145)
  10. 	 Written patient care instructions for the home health aide must be prepared by the registered nurse or
        other appropriate professional who is responsible for the supervision of the home health aide under                                                                         2.2%
        paragraph (d) of this section. (G224)
  11. 	 The clinical record or minutes of case conferences establish that effective interchange, reporting, and
                                                                                                                                                                                    2.1%
        coordination of patient care does occur. (G144)
  12. 	 The HHA and its staff must comply with accepted professional standards and principles that apply to
                                                                                                                                                                                    2.0%
        professionals furnishing services in a home health agency. (G121)
  13. 	 The registered nurse makes the initial evaluation visit and regularly reevaluates the patient’s nursing
                                                                                                                                                                                    2.0%
        needs. (G172)
  14. 	 The HHA furnishes skilled nursing services by or under the supervision of a registered nurse and in
                                                                                                                                                                                    1.9%
        accordance with the plan of care. (G170)
  15. 	 The registered nurse prepares clinical and progress notes, coordinates services, and informs the
                                                                                                                                                                                    1.9%
        physician and other personnel of changes in the patient’s condition and needs. (G176)
  16. 	 If a physician refers a patient under a plan of care that cannot be completed until after an evaluation visit,
                                                                                                                                                                                    1.5%
        the physician is consulted to approve additions or modifications to the original plan. (G160)
      Total                                                                                                                                                                        50.5%
Source: Office of Inspector General analysis of the Centers for Medicare & Medicaid Services survey data, 2007.
* Each standard and condition is affiliated with a specific G tag (e.g., G158). CMS uses G tags to identify deficiencies on the Statement of Deficiencies and Plan
of Correction form.


               OEI-09-06-00040              DEFICIENCY HISTORY     AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S                  23
    Δ           A P P E N D I X ~ E


 Metropolitan Statistical Areas With High Numbers of Cyclically Deficient HHAs
                                                                                     Number of HHAs
                                                                                        With at Least                       Number of HHAs                  Percentage of HHAs
 State               Metropolitan Statistical Area                                    One Citation in                          With Repeat                         With Repeat
                                                                                         Each of Last                             Citations                           Citations
                                                                                       Three Surveys
                     Los Angeles-Long Beach-Santa Ana                                                            46                                 31                       67%

                     Riverside-San Bernardino-Ontario                                                            27                                 12                       44%

 CALIFORNIA          San Diego-Carlsbad-San Marcos                                                               19                                 18                       95%

                     Rest of CA                                                                                  43                                 19                       44%

                        State Total                                                                            135                                  80                       59%

                     Cape Coral-Fort Meyers                                                                      14                                   6                      43%

                     Miami-Fort Lauderdale-Miami Beach                                                         140                                  15                       11%
 FLORIDA
                     Rest of Florida                                                                           238                                  17                       7%

                        State Total                                                                            392                                  38                       10%

                     Chicago-Naperville-Joliet                                                                 139                                117                        84%

 ILLINOIS            Rest of Illinois                                                                          113                                  42                       37%

                        State Total                                                                            252                                159                        63%

                     Cedar Rapids                                                                                11                                   4                      36%

                     Des Moines-West Des Moines                                                                    4                                  3                      75%

 IOWA                Waterloo-Cedar Falls                                                                        15                                   3                      20%

                     Rest of Iowa                                                                              145                                  49                       34%

                        State Total                                                                            175                                  59                       34%

                     Detroit-Warren-Livonia                                                                      51                                 31                       61%

 MICHIGAN            Rest of Michigan                                                                            54                                 32                       59%

                        State Total                                                                            105                                  63                       60%

                     Dallas-Fort Worth-Arlington                                                               132                                  38                       29%

                     Houston-Sugar Land-Baytown                                                                124                                  21                       17%

                     McAllen-Edinburg-Mission                                                                    29                                 11                       38%
 TEXAS
                     San Antonio                                                                                 68                                 30                       44%

                     Rest of Texas                                                                             384                                  57                       15%

                        State Total                                                                            737                                157                        21%

Source: Office of Inspector General analysis of the Centers for Medicare & Medicaid Services survey data, 2007.




           OEI-09-06-00040              DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S               24
Δ          A P P E N D I X ~ F


 Agency Comments




OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   25
A   P   P E N D       I X      ~      F            





    OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   26 

A   P   P E N D       I X      ~      F            





    OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   27 

A   P   P E N D       I X      ~      F            





    OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   28 

A P   PA EC N K D N I OX W ~ L EF D G M E N T S
Δ


                    This report was prepared under the direction of Timothy S. Brady, 

                    Regional Inspector General for Evaluation and Inspections in the 

                    San Francisco regional office, and Deborah W. Harvey, Deputy Regional 

                    Inspector General. 


                    China Tantameng and Camille Harper were coleaders for this study. 

                    Other Office of Evaluation and Inspections staff from the San Francisco 

                    regional office who contributed include Scott Hutchison; central office 

                    staff who contributed include Rob Gibbons and Sandy Khoury. 





  OEI-09-06-00040   DEFICIENCY HISTORY   AND   R E C E R T I F I C AT I O N   OF   M E D I C A R E H O M E H E A LT H A G E N C I E S   29
